APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Eighth
Circuit
(July 3, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Order Granting Plaintiff’s Motion for
Summary Judgment and Motion to
Dismiss and Denying Defendant’s
Motion for Partial Summary
Judgment in the United States
District Court for the District of North
Dakota
(February 28, 2018) . . . . . . . . . . App. 13
Appendix C Verified Complaint and Exhibit 2 to
Verified Complaint (Summary Plan
Description) in the United States
District Court for the District of North
Dakota (Excerpts)
(September 9, 2016) . . . . . . . . . . App. 25
Appendix D Answering Brief of Appellee MBI
Energy Services in the United States
Court of Appeals for the Eighth
Circuit (excerpts)
(May 22, 2018) . . . . . . . . . . . . . . App. 50

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1539
[Filed July 3, 2019]
__________________________________________
MBI Energy Services
)
Plaintiff - Appellee
)
)
v.
)
)
Robert Hoch
)
Defendant - Appellant
)
)
Charles Kannebecker, as a stakeholder;
)
Law Office of Charles Kannebecker, LLC,
)
as a stakeholder
)
Defendants
)
_________________________________________ )
Appeal from United States District Court
for the District of North Dakota - Bismarck
Submitted: March 12, 2019
Filed: July 3, 2019
Before GRUENDER, BENTON, and GRASZ, Circuit
Judges.
GRUENDER, Circuit Judge.

App. 2
Robert Hoch appeals the district court1 order
granting summary judgment to MBI Energy Services,
denying Hoch’s motion for partial summary judgment,
and dismissing his counterclaims. We affirm.
Hoch was a member and beneficiary of a self-funded
employee benefit plan (“the Plan”) sponsored and
administered by MBI. The Plan provided Hoch
$68,210.38 in medical benefits after he was injured in
an accident. He also reached a settlement with the
tortfeasor responsible for his injury and received
compensation from the tortfeasor’s insurer. Because
Hoch was compensated twice for his injury, MBI
brought suit seeking reimbursement of the benefits it
paid him under the Plan. MBI eventually reduced its
original claim of $68,210.38 by one-third to $45,473.59
to offset the attorneys’ fees Hoch incurred in achieving
his settlement.
Hoch denied that the Plan authorized
reimbursement and also brought a counterclaim
alleging that MBI acted improperly by initially seeking
reimbursement of the full $68,210.38. The district court
granted summary judgment to MBI, and it denied
Hoch’s motion for partial summary judgment and
dismissed his counterclaim. Hoch appealed.
We first consider whether MBI was entitled to
summary judgment on its reimbursement claim. We
review a district court’s grant of summary judgment de
novo and may affirm on any ground supported by the
record. Moyle v. Anderson, 571 F.3d 814, 817 (8th Cir.
1

The Honorable Daniel L. Hovland, Chief Judge, United States
District Court for the District of North Dakota.

App. 3
2009). Summary judgment is proper “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a).
The Employee Retirement Income Security Act of
1974 (“ERISA”) mandates that every employee benefit
plan “be established and maintained pursuant to a
written instrument” that “provide[s] for one or more
named fiduciaries who jointly or severally shall have
authority to control and manage the operation and
administration of the plan.” 29 U.S.C. § 1102(a)(1).
Each plan must also
(1) provide a procedure for establishing and
carrying out a funding policy and method
consistent with the objectives of the plan and the
requirements of [ERISA],
(2) describe any procedure under the plan for the
allocation of responsibilities for the operation
and administration of the plan . . . ,
(3) provide a procedure for amending such plan,
and for identifying the persons who have
authority to amend the plan, and
(4) specify the basis on which payments are
made to and from the plan.
Id. § 1102(b). ERISA further requires that participants
and beneficiaries be given a “summary plan
description.” Id. § 1022(a). The summary plan
description “shall be written in a manner calculated to
be understood by the average plan participant, and
shall be sufficiently accurate and comprehensive to

App. 4
reasonably apprise such participants and beneficiaries
of their rights and obligations under the plan.” Id.
ERISA allows a fiduciary such as MBI to bring an
action for equitable relief to enforce the terms of an
employee benefit plan. See id. § 1132(a)(3). But Hoch
argues that the Plan’s terms do not authorize MBI to
seek reimbursement of the benefits it paid him. We
must therefore determine whether the Plan authorizes
MBI to seek reimbursement following Hoch’s
settlement recovery.
As we have observed, “[I]dentifying ‘the plan’ is not
always a clear-cut task.” Admin. Comm. of Wal-Mart
Stores, Inc. Assocs.’ Health & Welfare Plan v. Gamboa,
479 F.3d 538, 542 (8th Cir. 2007). “[O]ften the terms of
an ERISA plan must be inferred from a series of
documents none clearly labeled as ‘the plan.’” Id.
(alteration in original). Here, there is no written
instrument clearly identifying itself as the Plan, but
MBI entered an agreement authorizing Blue Cross
Blue Shield of North Dakota (“BCBSND”) to provide
administrative services to the Plan. This
Administrative Services Agreement (“ASA”) states that
the Plan “provides, among other things, various
benefits to Members in the Plan, as set forth in the
attached Exhibit ‘A,’” and that “[r]equests for Plan
benefits will be evaluated by [BCBSND] in accordance
with the terms and conditions of the Plan, a copy of
which is attached as Exhibit ‘A.’” Exhibit A is entitled
“Summary Plan Description” (“SPD”) and includes the
information required by § 1102(b), including
comprehensive information concerning benefits.

App. 5
The SPD also includes a provision entitled “Rights
of Subrogation, Reimbursement and Assignment,”
which is the subject of this appeal. This provision
requires a Plan member to “reimburse the Claims
Administrator on behalf of the Group to the full extent
of any benefits paid by the Claims Administrator, not
to exceed the amount of the recovery,” if the member
“makes any recovery from a third party.” Hoch
maintains that this reimbursement provision is not
binding because it is found only in the SPD, which he
argues is distinct from and cannot constitute the Plan.
See 29 U.S.C. § 1022(a) (requiring a summary plan
description to “reasonably apprise such participants
and beneficiaries of their rights and obligations under
the plan” (emphasis added)). MBI counters that,
despite its label, the terms of the SPD in fact comprise
the Plan.
We previously addressed this question in Gamboa,
which rejected the argument that a summary plan
description cannot serve as a plan. In that case, as in
this one, a beneficiary received benefits under an
ERISA plan and also recovered a settlement with a
third party. Gamboa, 479 F.3d at 540. The plan sought
reimbursement, but the district court found that the
reimbursement provision was not an enforceable part
of the plan because it was contained only in a summary
plan description that was not identified as a formal
plan document. Id. at 540-41, 543. We reversed the
district court’s judgment because the summary plan
description was the only document providing an
identifiable source of plan benefits. Id. at 544. We
rejected as “nonsensical . . . an interpretation that
renders no plan at all under the terms of ERISA” and

App. 6
concluded that “the label of summary plan description
. . . is not dispositive. . . . Where no other source of
benefits exists, the summary plan description is the
formal plan document, regardless of its label.” Id.
Hoch argues that our holding in Gamboa is contrary
to the Supreme Court’s subsequent decision in CIGNA
Corp. v. Amara, 563 U.S. 421 (2011). In Amara, the
district court found that CIGNA Corporation’s
representations to beneficiaries regarding changes it
made to its benefit plan violated ERISA, and the court
reformed the plan’s terms. Id. at 424-25. The Supreme
Court held that ERISA did not authorize the district
court to provide relief that altered a plan’s terms in
this manner. Id. at 436. The Solicitor General
suggested that the altered terms were nonetheless
enforceable because they were consistent with terms
contained in the summary plan descriptions, and the
Supreme Court addressed whether the summary plan
descriptions were part of the plan. Id. at 437.
The Court concluded that the terms of the summary
plan descriptions were not part of the plan. Id. It
reasoned that summary plan descriptions “provide
communication with beneficiaries about the plan, but
that their statements do not themselves constitute the
terms of the plan.” Id. at 438. Three factors drove the
Court’s analysis. First, the language of the statutory
text mandating that summary plan descriptions
apprise beneficiaries of their rights and obligations
“under the plan” indicated that “the information about
the plan provided by those disclosures is not itself part
of the plan.” Id. at 437. Second, ERISA’s division of
authority between a plan’s sponsor (responsible for

App. 7
creating a plan’s terms) and the plan’s administrator
(responsible for managing the plan and providing the
summary plan descriptions) meant that treating a
summary plan description as part of the plan would
give the administrator the power to set terms that
should be set by the sponsor. Id. Third, construing
summary plan descriptions as legally binding parts of
a plan could lead administrators to favor legalese over
“clear, simple communication,” defeating the purpose
of such summaries. Id. at 437-38.
While Amara undermines parts of Gamboa’s
reasoning, see, e.g., 479 F.3d at 544 (“[W]e have held
that the terms of a summary plan description prevail
even if they conflict with the provisions of a formal plan
. . . .”), it does not address the question we decided in
Gamboa: whether, in the absence of any other plan
document providing benefits, the summary plan
description could constitute the plan. Thus, because
Amara “rests in important part upon the circumstances
present” in that case (namely that there was both a
plan document and a summary plan description) that
are not present here (where the SPD is the only
benefit-providing Plan document), Gamboa remains
binding law in this circuit. See Amara, 563 U.S. at 425.
Indeed, several other circuit courts have considered
this question and concluded that Amara does not
prevent a summary plan description from functioning
as the plan in the absence of a formal plan document.
Mull for Mull v. Motion Picture Indus. Health Plan,
865 F.3d 1207, 1209-10 (9th Cir. 2017); Rhea v. Alan
Ritchey, Inc. Welfare Benefit Plan, 858 F.3d 340, 344-45
(5th Cir. 2017); Bd. of Trs. v. Moore, 800 F.3d 214, 21921 (6th Cir. 2015); Eugene S. v. Horizon Blue Cross

App. 8
Blue Shield of N.J., 663 F.3d 1124, 1131-32 (10th Cir.
2011). Thus, applying Gamboa, we hold that the SPD
is the Plan’s written instrument because it is the only
document providing benefits.
Hoch nevertheless contends that a pair of Eighth
Circuit decisions decided after Gamboa prevents MBI
from relying on the SPD’s reimbursement provision.
See Jobe v. Med. Life Ins. Co., 598 F.3d 478 (8th Cir.
2010); Ringwald v. Prudential Ins. Co. of Am., 609 F.3d
946 (8th Cir. 2010) (applying Jobe). In Jobe, the
summary plan description granted discretionary
authority to the plan administrator, but such a grant
did not appear in the plan itself. 598 F.3d at 480.
Recognizing a conflict between the two documents, we
held that a provision appearing in the summary plan
description alone was not sufficient to confer such
discretionary authority. Id. at 483-84. But as Jobe
recognized, in Gamboa there was no such conflict: “The
summary plan description was the only plan document
providing health benefits.” Id. at 482. Hoch claims
there is a conflict between the ASA and the SPD here
and argues that the ASA should control. But the ASA
is silent as to reimbursement and expressly
incorporates the SPD, noting that it delineates “the
terms and conditions of the Plan.” Thus, there is no
conflict between the two documents. See Johnson v.
United of Omaha Life Ins. Co., 775 F.3d 983, 988 (8th
Cir. 2014) (concluding there was no conflict between
two plan documents because the policy incorporated
the summary plan description). As in Gamboa, the SPD
must be the Plan because it is the only document that
can plausibly serve this function.

App. 9
To be sure, conflating a plan and a summary plan
description risks undermining ERISA’s goal that the
summary plan description embody “clear, simple
communication,” Amara, 563 U.S. at 437, and we do
not address whether this SPD meets all the
requirements of § 1022. But the equities in this case
buttress our conclusion that the reimbursement
provision is enforceable. As we stated in Gamboa,
“Having received medical benefits in accordance with
the [summary plan description], we will not permit a
participant to deny the corresponding responsibilities
and obligations that are clearly imposed on the
participant in the same document—what is good for the
goose is good for the gander.” 479 F.3d at 545. We
likewise noted the importance of reimbursement in
maintaining the “financial viability” of self-funded
plans with limited resources. Id. at 545-46. Because the
SPD is the Plan’s written instrument and Hoch does
not dispute that its reimbursement provision requires
him to pay MBI if it is an enforceable part of the Plan,
we affirm the district court’s holding that MBI is
entitled to reimbursement.
Hoch also appeals the district court’s dismissal of
his counterclaim. “We review de novo the district
court’s grant of a motion to dismiss, accepting as true
all factual allegations in the complaint and drawing all
reasonable inferences in favor of the nonmoving party.”
Topchian v. JPMorgan Chase Bank, N.A., 760 F.3d
843, 848 (8th Cir. 2014).
On appeal, Hoch appears to argue that by initially
asserting a claim for $68,210.38 rather than
$45,473.59, MBI unlawfully deprived him of the use of

App. 10
$22,736.79 and thus owes him interest and other relief.
But in his brief in opposition to MBI’s motion to
dismiss before the district court, Hoch explained only
how he was injured by being deprived of the
$45,743.59. As we explained above, he was not entitled
to this money. And because Hoch did not spell out his
alternative theory and give the district court the
opportunity to consider his arguments concerning the
additional $22,736.79 initially claimed by MBI, we
decline to take this issue up here. See Mau v. Twin City
Fire Ins. Co., 910 F.3d 388, 391 (8th Cir. 2018).
Finally, Hoch maintains in his reply brief that he is
entitled to an array of equitable remedies for various
ERISA violations committed by MBI. But he failed to
meaningfully raise this issue in his opening brief, and
we generally do not consider arguments made for the
first time in a reply brief. See Tension Envelope Corp.
v. JBM Envelope Co., 876 F.3d 1112, 1120 (8th Cir.
2017).
For all these reasons, the district court’s judgment
is affirmed.

App. 11
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1539
[Filed July 3, 2019]
__________________________________________
MBI Energy Services
)
Plaintiff - Appellee
)
)
v.
)
)
Robert Hoch
)
Defendant - Appellant
)
)
Charles Kannebecker, as a stakeholder;
)
Law Office of Charles Kannebecker, LLC,
)
as a stakeholder
)
Defendants
)
_________________________________________ )
Appeal from U.S. District Court for the District of
North Dakota - Bismarck
(1:16-cv-00329-DLH)
JUDGMENT
Before GRUENDER, BENTON and GRASZ, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court, briefs
of the parties and was argued by counsel.
After consideration, it is hereby ordered and
adjudged that the judgment of the district court in this

App. 12
cause is affirmed in accordance with the opinion of this
Court.
July 03, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App. 13

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Case No. 1:16-cv-329
[Filed February 28, 2018]
_____________________
MBI Energy Services, )
Plaintiff,
)
)
vs.
)
)
Robert Hoch,
)
Defendant.
)
____________________)
ORDER GRANTING PLAINTIFF’S MOTION
FOR SUMMARY JUDGMENT AND MOTION TO
DISMISS AND DENYING DEFENDANT’S
MOTION FOR PARTIAL SUMMARY
JUDGMENT
Before the Court are the parties cross motions for
summary judgment, as well as the Plaintiff’s motion to
dismiss the Defendant’s counterclaim. See Docket
Nos. 25, 30, and 36. For the reasons set forth below, the
Court grants the Plaintiff’s motions and denies the
Defendant’s motion.

App. 14
I.

BACKGROUND

Plaintiff MBI Energy Services (“MBI”) is a sponsor
and administrator of the Missouri Basin Health Plan
(“Plan”). The Plan is a self-funded health benefit plan
subject to the Employee Retirement Income Security
Act of 1974 (“ERISA”). Defendant Robert Hoch (“Hoch”)
was a member and beneficiary of the plan. Hoch
sustained injuries in an accident that occurred on
December 20, 2012. MBI claims the plan paid
$68,210.38 in health benefits related to Hoch’s injuries.
Hoch settled a tort claim with the individual who
allegedly caused the accident for $320,000. See Docket
No. 3-2, p. 4.
MBI filed a complaint against Hoch and his
attorney, Charles Kannebecker (“Kannebecker”), and
the Law Office of Charles Kannebecker, LLC (“Law
Office”) to recover the medical benefits MBI asserts the
Plan paid on Hoch’s behalf. MBI’s complaint was
accompanied by an itemized benefit statement showing
the Plan paid a total of $68,210.38. See Docket No. 11. MBI asserts the Plan requires members to reimburse
the Plan for benefits it pays if a member obtains a
recovery from a tortfeasor. The Summary Plan
Description (“SPD”) contains a provision entitled
“Rights of Subrogation, Reimbursement, and
Assignment.” It states, in part:
If a member makes any recovery from a third
party . . . whether by judgment settlement or
otherwise, the Member must notify the Claims
Administrator of said recovery and must
reimburse the Claims Administrator on behalf of
the Group to the full extent of any benefits paid

App. 15
by the Claims Administrator, not to exceed the
amount of the recovery.
See Docket No. 1-2, p. 74. The Plan’s claims
administrator is Blue Cross Blue Shield of North
Dakota (“BCBSND”). MBI entered into an
Administrative Service Agreement (“ASC”) with
BCBSND that sets forth various provisions regarding
claims administration. See Docket No. 28-2, p. 18. The
SPD is attached to the ASC as an exhibit. See Docket
No. 32-1, p. 33.
MBI, Hoch, and Kannebecker entered into a
stipulation agreement on September 26, 2016. MBI
agreed to dismiss its claim against Kannebecker and
his Law Office without prejudice. In turn, Hoch and
Kannebecker agreed to deposit $45,473.59 (“the
Disputed Funds”) with the Court pending resolution of
MBI’s claim. See Docket No. 7. Kannebecker deposited
the Disputed Funds with the Registry of the Court on
September 29, 2016. Hoch then reduced its
reimbursement claim by one-third (for a total claim
amount of $45,473.59) to account for costs Hoch
incurred due to his tort recovery efforts. See Docket
No. 25, p. 2.
MBI moved for summary judgment on March 29,
2017. Hoch brought a counter motion for partial
summary judgment on April 13, 2017. On the same
date, Hoch also brought a counterclaim. MBI moved to
dismiss Hoch’s counterclaim on April 27, 2017.
II.

LEGAL DISCUSSION

MBI’s summary judgment motion asserts the SPD’s
reimbursement language gives the Plan an equitable

App. 16
lien on Hoch’s recovery proceeds. Hoch’s counter
motion for summary judgment argues the SPD is not a
valid plan document and thus MBI has no right to
reimbursement. Hoch’s counterclaim asserts MBI
breached fiduciary duties it owed to himself and other
plan members. MBI, as fiduciary for the Plan, asserts
it has a right to reimbursement pursuant to the SPD’s
reimbursement provision. MBI claims the SPD creates
an equitable lien on a portion1 of the proceeds Hoch
recovered from the alleged tortfeasor. Hoch contends
MBI is not entitled to reimbursement because the SPD
is only a summary of the plan, and it conflicts with the
ASC, which is the controlling plan document. Hoch also
argues there are issues of material fact that preclude a
grant of summary judgment in MBI’s favor.
A. STANDARD OF REVIEW
Summary judgment is appropriate when the
evidence, viewed in a light most favorable to the nonmoving party, indicates no genuine issues of material
fact exist and the moving party is entitled to judgment
as a matter of law. Davison v. City of Minneapolis, 490
F.3d 648, 654 (8th Cir. 2007); see also Fed. R. Civ.
P. 56(a). Summary judgment is not appropriate if there
are factual disputes that may affect the outcome of the
case under the applicable substantive law. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A
genuine issue of material fact is not the “mere

1

MBI’s original claim was for the full amount of benefits the Plan
paid. See Docket No. 1. MBI later reduced its claim for costs Hoch
incurred while negotiating a settlement with the alleged
tortfeasor. See Docket No. 25, p. 2.

App. 17
existence of some alleged factual dispute between the
parties.” State Auto Ins. Co. v. Lawrence, 358 F.3d 982,
985 (8th Cir. 2004). Rather, an issue of material fact is
genuine “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson, 477 U.S. at 248. The moving party always
bears the burden of demonstrating the absence of a
genuine issue of material fact. Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). The non-moving party may
not rely merely on allegations or denials; it must set
out specific facts showing a genuine issue for trial.
Forrest v. Kraft Foods, Inc., 285 F.3d 688, 691 (8th Cir.
2002). The court must view the facts in the light most
favorable to the non-moving party. Adickes v. S.H.
Kress & Co., 398 U.S. 144, 157 (1970).
B. MBI IS ENTITLED TO
REIMBURSEMENT
MBI brings its claim under 29 U.S.C. § 1132(a)(3),
which allows a plan fiduciary to bring a civil action to
obtain “appropriate” equitable relief to redress
violations and enforce provisions of the plan. The
United States Supreme Court has held “the
enforcement of a lien created by an agreement to
convey a particular fund to another party” constitutes
appropriate equitable relief under Section 1132(a)(3).
Montanile v. Brd. of Tr. of the Nat’l Elevator Indus.,
136 S.Ct. 651, 654 (2016).
ERISA requires plans “be established and
maintained pursuant to a written instrument.” 29
U.S.C. § 1102(a)(1). “Courts often refer to written
instruments as ‘plan documents.’” Rhea v. Alan
Ritchey, Inc. Welfare Benefit Plan, 858 F.3d 340, 344

App. 18
(5th Cir. 2017). “[E]mployers have large leeway to
design disability plans and other welfare plans as they
see fit.” Black & Decker Disability Plan v. Nord, 538
U.S. 822, 838 (2003). However, ERISA mandates plan
documents contain certain features, including
specifying “the basis on which payments are made to
and from the plan.” 29 U.S.C. § 1102(b). ERISA also
requires plan administrators provide a summary plan
description (“SPD”) to plan members. See id.
§ 1024(b)(1). The SPD must “be written in a manner
calculated to be understood by the average plan
participant and shall be sufficiently accurate and
comprehensive to reasonably apprise such participants
and beneficiaries of their rights and obligations under
the plan.” Id. § 1022.
It is often unclear which document or documents
constitute the plan. Admin. Comm. of Wal-Mart Stores,
Inc. v. Gamboa, 479 F.3d 538, 542 (8th Cir. 2007).
“Often the terms of an ERISA plan must be inferred
from a series of documents none clearly labeled as ‘the
plan.’” Id. “A formal plan document is one which a plan
participant could read to determine his or her rights or
obligations under the plan.” United Food &
Commercial Workers Union v. Campbell Soup Co., 898
F. Supp. 1118, 1136 (D.N.J. 1995) (citing Curtis-Wright
Corp. v. Schoonejongen, 514 U.S. 73, 84 (1995)).
“Summary plan descriptions are considered part of
ERISA plan documents.” Barker v. Ceridian Corp., 122
F.3d 628, 633 (8th Cir. 1997). See also Hughs v. 3M
Retiree Med. Plan, 281 F.3d 786, 790 (8th Cir. 2002);
Jensen v. SIPCO, Inc., 38 F.3d 945, 949 (8th Cir. 1994).
“Where no other source of benefits exists, the summary
plan description is the formal plan document,

App. 19
regardless of its label.” Gamboa, 479 F.3d at 544
(emphasis in original).
Hoch asserts the SPD is merely a summary of the
plan, and thus it is a “legally insufficient document to
confer subrogation and repayment rights.” See Docket
No. 28, p. 11. In Board of Trustees v. Moore, the
plaintiff similarly argued a subrogation provision was
unenforceable because it appeared only in the SPD and
not in the trust agreement that established and funded
the plan. 800 F.3d 214, 218 (6th Cir. 2015). The trial
court found the SPD was the controlling plan document
because there was no other provision establishing the
rights and obligations of members under the plan. Id.
at 220. On appeal, the plaintiff relied—as does
Hoch—on the United States Supreme Court’s
observation in Cigna Corp. v. Amara, “that ‘summary
documents, important as they are, provide
communication with beneficiaries about the plan, but
that their statements do not themselves constitute the
terms of the plan.’” Id. (emphasis in original) (quoting
Cigna Corp v. Amara, 563 U.S. 421, 438 (2011)). The
Sixth Circuit Court of Appeals upheld the district
court’s enforcement of the SPD’s subrogation provision.
It explained that Amara does not stand for the
proposition that an SPD cannot be a plan document:
In Amara, however, it was clear that one
document functioned as the plan itself, that a
different document functions as the summary
plan description, and that the two documents
contained conflicting terms. Nothing in Amara
prevents a document from functioning both as

App. 20
the ERISA plan and as an SPD, if the terms of
the plan so provide.
Id. (emphasis in original). The Court agrees with the
analysis in Moore; there is no prohibition on SPDs
serving as plan documents. As in Moore, the SPD is the
only document that sets forth member benefit rights
and obligations. Hoch was paid benefits pursuant to
the SPD. If the SPD were not a plan document, there
would effectively be no plan.
Hoch alternatively asserts that even if the SPD is a
plan document, it conflicts with the ASC, which
controls. Because the ASC has no reimbursement
language, Hoch argues the Plan has no right to
reimbursement. The ASC is an agreement between the
Plan and its claims administrator, BCBSND. The ASC
contains terms concerning the handling of claims. On
the other hand, the SPD contains terms regarding
member benefits and obligations. Given this scheme,
inclusion of language in the ASC regarding a member’s
reimbursement obligation would be unexpected. See
Campbell Soup Co., 898 F. Supp. at 1136 (finding ASC
between welfare plan and plan administer was as a
contract for services and did not contain provisions
regarding member health benefits). The Court
concludes that, despite its label, the SPD is a plan
document and there is no conflict between it and the
ASC. The Plan’s reimbursement provision creates an
equitable lien on Hoch’s recovery, and thus MBI is
entitled to the Disputed Funds as a fiduciary of the
Plan.

App. 21
C. THERE ARE NO ISSUES OF MATERIAL
FACT
Hoch asserts summary judgment is not appropriate
at this stage because there are material issues of fact.2
Hoch first claims there is a factual dispute regarding
the payment of benefits; he “denies that the plan
actually paid all the money alleged.” See Docket
No. 29-1, pgs. 11-12. The moving party bears the initial
burden of showing there is no genuine issue of material
fact. Celotex Corp., 477 U.S. at 323. MBI supported its
motion with (1) an itemized benefit statement showing
dates and amounts paid; (2) correspondence between
Hoch’s attorney and a BCBSND representative
discussing the Plan’s lien amount; and (3) an email
from the tortfeasor’s insurer indicating Hoch
renegotiated the settlement amount based on an
increase in the Plan’s lien amount. See Docket Nos. 1,
32, 33, and 36. “[A] nonmoving party may not rest upon
mere denials or allegations, but must instead set forth
specific facts sufficient to raise a genuine issue for
trial.” Forrest, 285 F.3d 691. Hoch has not alleged a
single fact in support of his assertion that the Plan did
not pay him the full amount of benefits MBI claims.

2

In his response to MBI’s motion for summary judgment, Hoch
states, in a footnote, that he “incorporates herein by reference the
averments and facts set forth in Defendant’s Rule 56(d)
Declaration” and he asks the Court to defer ruling on MBI’s
summary judgment motion until he has had an opportunity for
further discovery. See Docket No. 29-1, p. 12. Hoch has not
submitted any declaration or other document, as required by the
rule, setting forth the basis for why he is entitled to Rule 56(d)
relief as to MBI’s motion for summary judgment. The Court will
not address his informal request.

App. 22
Hoch simply rests on his one sentence denial without
further explanation. Hoch has not raised a factual
dispute regarding the amount of benefits the Plan paid.
Second, Hoch contends summary judgment is not
appropriate because the benefits the Plan paid were
not for treatment related to the fall for which he
obtained a recovery. Hoch supports this allegation with
one sentence in a declaration by his attorney: “Robert
Hoch had already had injury to his shoulder prior to
his fall on December 20, 2012.” See Docket No. 31-1,
p. 1. There are no other details in the record regarding
this prior fall, what type of injuries resulted, whether
the injuries necessitated medical care, or what amount
the Plan paid for his injury. Moreover, Hoch has not
met his burden of showing how this fact, even if true,
is material under the substantive law of the case. The
reimbursement language in the SPD appears to require
members to reimburse the Plan for any benefits paid
after a recovery, regardless of whether the benefits
paid were on account of the specific injury for which the
member obtained a recovery:
If a member makes any recovery from a third
party . . . the Member must . . . reimburse [the
Plan] . . . to the full extent of any benefits paid
. . . . This right of reimbursement shall apply to
any such recovery . . . . Any recovery the member
may obtain is conclusively presumed to be for
the reimbursement of benefits paid . . . .
See Docket No. 1, p. 3 (emphasis added). Hoch has not
provided a legal basis for his suggestion that his
alleged prior fall relieves him of his reimbursement
obligation under the SPD.

App. 23
Last, Hoch asserts there are factual issues
concerning whether “the purported subrogation terms
were properly placed into the Plaintiff’s documents . . . .
In order to be operative, the terms of any SPD
agreement or plan must be properly and legally
incorporated into the document.” See Docket No. 29-1,
p. 12. Hoch provides no legal basis for what steps
would be required for “proper and legal incorporation,”
nor does he articulate how MBI may have failed to
follow these steps. Regardless, as the Court has
explained, the SPD is the controlling plan document.
The Court concludes there are no genuine issues of
material fact, and MBI is entitled to judgment as a
matter of law. Further, because the Court concludes
MBI is entitled to reimbursement, the Court finds
Hoch’s counterclaims against MBI necessarily fail.
III.

CONCLUSION

The Court has carefully reviewed the entire record,
the parties’ filings, and the relevant law. For the
reasons set forth above, the Court GRANTS the
Plaintiff’s Motion for Summary Judgment (Docket
No. 25) and DENIES the Defendant’s Motion for
Partial Summary Judgment (Docket No. 30). The Court
also GRANTS the Plaintiff’s Motion to Dismiss the
Counterclaims (Docket No. 36) and DISMISSES
Hoch’s counterclaims against MBI. The Court directs
the Clerk of Court to enter judgment in favor of MBI
Energy Services in the amount of $45,473.59.

App. 24
IT IS SO ORDERED
Dated this 28th day of February, 2018.
/s/ Daniel L. Hovland
Daniel L. Hovland, Chief Judge
United States District Court

App. 25

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Case No.: ___________________
[Filed September 9, 2016]
__________________________________________
MBI ENERGY SERVICES,
)
Plaintiff,
)
)
v.
)
)
ROBERT HOCH; CHARLES
)
KANNEBECKER, as a stakeholder;
)
LAW OFFICE OF CHARLES
)
KANNEBECKER, LLC, as a stakeholder,
)
Defendants.
)
_________________________________________ )
VERIFIED COMPLAINT
Plaintiff, MBI Energy Services (“MBI”), pleads as
follows:
1.
This action is to enforce the terms of the
Missouri Basin Health Plan (“Plan”) and for equitable
relief, arising under the Employee Retirement Income
Security Act of 1974 (“ERISA”), 29 U.S.C.
§§ 1001–1461.

App. 26
PARTIES
2.
MBI is the Plan Sponsor and Plan
Administrator of the Plan, which is self-funded and
covered by ERISA. MBI is therefore a Plan fiduciary
entitled to bring this action pursuant to 29 U.S.C.
§ 1132(a)(3).
3.
Defendant, Robert Hoch (“Hoch”), is a citizen
and resident of Greentown, Pennsylvania.
4.
Upon information and belief, Defendant,
Charles Kannebecker, Esq. (“Kannebecker”), is a
citizen and resident of Milford, Pennsylvania.
5.
Defendant, Law Office of Charles
Kannebecker, LLC (“Law Firm”), is a law firm
operating in Milford, Pennsylvania.
JURISDICTION AND VENUE
6.
This Court has subject-matter jurisdiction
pursuant to 28 U.S.C. § 1331 and 29 U.S.C. § 1132,
because this action is to enforce provisions of the Plan,
arising under ERISA.
7.
Jurisdiction is also based on 29 U.S.C.
§1132(e)(1), which grants United States District Courts
exclusive jurisdiction over all civil actions arising under
29 U.S.C. § 1132(a)(3).
8.
Pursuant to 29 U.S.C. §1132(e)(2), venue in
this Court is proper because MBI administers the Plan
in this District.

App. 27
9.
Pursuant to 29 U.S.C. §1132(e)(2), personal
jurisdiction is proper because the Defendants all
“reside or may be found” within the United States.
FACTUAL ALLEGATIONS
10.
At all times relevant to this action, Hoch was
a Member and beneficiary of the Plan.
11.
On or about December 20, 2012, Hoch was
injured in a personal-injury accident (“Accident”).
12.
In connection with the injuries suffered by
Hoch, the Plan paid medical benefits on his behalf in
the amount of $68,210.38. A redacted copy of the
Itemization of Benefits is attached hereto as Exhibit 1.
13.
The Plan’s Summary Plan Description
(“SPD”) contains a section entitled, “Rights of
Subrogation, Reimbursement, and Assignment,” which
sets forth the Plan’s rights of subrogation and
reimbursement. That provision states:
7.4
RIGHTS
OF
SUBROGATION,
REIMBURSEMENT AND ASSIGNMENT
If the Claims Administrator on behalf of the
Group pays benefits for Covered Services to or
for a Member for any injury or condition caused
or contributed to by the act or omission of any
third party, the Claims Administrator on behalf
of the Group shall have certain rights of
assignment, subrogation and/or reimbursement
as set forth below. The Claims Administrator
has full discretionary authority to determine
whether to exercise any or all of said rights.

App. 28
A Member must notify the Claims
Administrator of the circumstances of the
injury or condition, cooperate with the
Claims Administrator in doing whatever is
necessary to enable the Claims
Administrator to assert these rights, and do
nothing to prejudice them. The rights
stated herein apply automatically in any
applicable situation. The Claims
Administrator has no obligation to notify a
Member of the Claims Administrator’s
intent to exercise one or more of these
rights and the Claims Administrator’s
failure to provide such a notice shall not
constitute a waiver of these rights.
If a Member does not comply with these
provisions or otherwise prejudices the rights of
the Claims Administrator on behalf of the Group
to assignment, subrogation or reimbursement,
the Claims Administrator shall have full
discretion to withhold payment of any future
benefits to or for the Member and to off set the
benefits already paid to or for the Member
against the payment of any future benefits to or
for the Member regardless of whether or not said
future benefits are related to the injury or
condition. The Claims Administrator shall have
full discretion to interpret these provisions and
to determine their application in each and every
situation. Any decisions by the Claims
Administrator regarding the application of the
above provisions shall be final, conclusive and
binding upon all parties.

App. 29
A. Right of Assignment and/or Subrogation: If a
Member fails to bring a claim against a third
party (including any person, firm or corporation
which may be liable for or on behalf of the third
party), the Claims Administrator on behalf of
the Group has the right to bring said claim as
the assignee and/or subrogee of the Member and
to recover any benefits paid under this Benefit
Plan.
B. Right of Reimbursement: If a Member makes
any recovery from a third party (including any
person, firm or corporation which may be liable
for or on behalf of the third party), whether by
judgment, settlement or otherwise, the Member
must notify the Claims Administrator of said
recovery and must reimburse the Claims
Administrator on behalf of the Group to the full
extent of any benefits paid by the Claims
Administrator, not to exceed the amount of the
recovery. This right of reimbursement shall
apply to any such recovery to the extent of any
benefits paid under this Benefit Plan even if the
Member has not received full compensation for
the injury or condition. Any recovery the
Member may obtain is conclusively presumed to
be for the reimbursement of benefits paid by the
Claims Administrator on behalf of the Group
until the Claims Administrator has been fully
reimbursed.
The Member agrees to not transfer any right to
any recovery to a third party or otherwise
attempt to avoid the rights of the Claims

App. 30
Administrator on behalf of the Group under this
Benefit Plan. The Member agrees that any
recovery shall be held in trust for the Claims
Administrator on behalf of the Group until the
Claims Administrator on behalf of the Group has
been fully reimbursed and/or that the Claims
Administrator on behalf of the Group shall have
a lien on any recovery to the full extent of any
benefits paid under this Benefit Plan. The
Member agrees that to enforce its rights under
this section, the Claims Administrator on behalf
of the Group may pursue any and all remedies,
legal or equitable, available under state or
federal law, Including subrogation, breach of
contract, constructive trust, equitable lien,
injunction, restitution and any other remedies.
SPD, at 58–59 (emphasis in original). A true and
correct copy of the reimbursement provision is
attached hereto as Exhibit 2.
14.
In or around November of 2015, Hoch settled
his claims arising out of the Accident for at least
$320,000.
15.
MBI, on behalf of the Plan, has asserted the
Plan’s right of reimbursement as to benefits the Plan
paid. Defendants have not reimbursed the Plan, and
continue to refuse to reimburse the Plan pursuant to
its terms.
16.
MBI brings this action to seek
enforcement—under ERISA—of the Plan’s right of
reimbursement in the amount of $68,210.38 (“Disputed
Funds”).

App. 31
17.
Upon information and belief, Defendants,
individually or collectively, have actual or constructive
possession of the Disputed Funds.
18.
Although the Plan has requested that
Kannebecker hold the Disputed Funds in Law Firm’s
IOLTA trust account pending resolution of the Plan’s
equitable lien by agreement, Kannebecker has refused
to confirm that he will hold the Disputed Funds in
trust.
19.
Kannebecker may have disbursed the some or
all of the Disputed Funds to Hoch.
20.
Kannebecker and Law Firm are named as
stakeholders because they may currently be in
possession of some or all of the Disputed Funds.
21.
The disbursement of the Disputed Funds to
Defendant Hoch by Kannebecker and Law Firm puts
the Disputed Funds at imminent risk of dissipation
and being placed beyond the Court’s ERISA
jurisdiction.
COUNT I
TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION
22.
MBI hereby re-alleges and incorporates by
reference the allegations set forth in Paragraphs 1
through 21 of the Complaint, as through fully restated
herein verbatim.
23.
Pursuant to Federal Rule of Civil
Procedure 65, MBI is entitled to a temporary
restraining order, and, upon notice and hearing, a

App. 32
preliminary injunction against Defendant Hoch, and all
those acting in concert or participation with him, from
disposing of the settlement proceeds, or whatever
portion of those funds has not been dissipated, and
requiring them to either preserve the Disputed Funds
as is or to pay the remaining Disputed Funds into the
Registry of this Court pending a final determination of
the parties’ rights. If Defendant Hoch is able to
dissipate the Disputed Funds, then he may deprive the
Court of the ability to impose an equitable remedy
under ERISA.
COUNT II
ENFORCEMENT OF THE TERMS
OF THE PLAN
24.
MBI hereby re-alleges and incorporates by
reference the allegations set forth in Paragraphs 1
through 23 of the Complaint, as through fully restated
herein verbatim.
25.
Pursuant to 29 U.S.C. § 1132(a)(3), MBI
seeks equitable relief, including, but not limited to,
equitable lien by agreement, equitable lien to enforce
ERISA and the terms of the Plan, restitution, and
imposition of a constructive trust with respect to the
Disputed Funds.
26.
Because Hoch is obligated, under the terms
of the Plan, to reimburse the Plan for benefits paid,
Defendants are in possession of funds which belong in
good conscience to the Plan.
27.
Defendants have violated the terms of the
Plan by refusing to cooperate with the Plan to protect

App. 33
its rights and refusing to reimburse the Plan to the
extent of benefits paid out of the amount that Hoch
recovered.
28.
Because Defendants’ acts and practices
violate the Plan terms, this Court should enter an
Order enforcing the terms of the Plan and requiring
Defendants to reimburse the Plan in the amount of the
Disputed Funds, $68,210.38.
PRAYER FOR RELIEF
WHEREFORE, MBI requests that the Court enter
an Order granting it a temporary restraining order,
and upon notice and hearing, a preliminary injunction,
a declaratory judgment, injunction, equitable lien by
agreement, constructive trust, and restitution against
Defendants, requiring Defendants to turn over to MBI
$68,210.38, including appropriate pre-judgment and
post-judgment interest, and any other relief to which
the Plan is entitled, including any declaratory and
injunctive relief necessary to enable it to obtain the
relief sought. MBI further requests that the Court
award it reasonable attorney’s fees and costs pursuant
to 29 U.S.C. § 1132(g).
Dated: September 8, 2016.

App. 34
Respectfully submitted,
/s/ J. Gordon Howard
J. Gordon Howard
Thomas H. Lawrence*
J. Matthew Stephens*
Jodi Bishop Runger*
LAWRENCE & RUSSELL, PLC
5178 Wheelis Drive
Memphis, Tennessee 38117
Phone: (901) 844-4449
Facsimile:(901) 844-4435
E-Mail: gordonh@lawrencerussell.com
toml@lawrencerussell.com
matts@lawrencerussell.com
jodir@lawrencerussell.com
*Application for admission pro hac vice to be filed.

App. 35
VERIFICATION
I, Sarah Boltz, a competent person of the full age of
majority, do hereby make oath as follows:
I am employed as Director of Benefits and
Administration at MBI Energy Services. I have
personal knowledge of the facts and exhibits set forth
in the Verified Complaint, and if called as a witness in
this matter, I could and would testify competently
thereto under oath. I verify under penalty of perjury
that the foregoing is true and correct.
Date: September 7, 2016
By:

/s/ Sarah Boltz
Sarah Boltz
Director of Benefits and Administration
MBI Energy Services

App. 36
EXHIBIT 2 TO
VERIFIED COMPLAINT
Summary Plan Description

CompChoice
Health Care Coverage
This is a grandfathered Benefit Plan under the
Patient Protection and Affordable Care Act (PPACA).

This health plan is that of your employer. Blue
Cross Blue Shield of North Dakota is serving only
as the Claims Administrator and does not assume
any financial risk except for stop-loss coverage.
Noridian Mutual Insurance Company

App. 37
MEMBER SERVICES
Questions?
Our Member Services staff is available to
answer questions about your coverage –
Call Member Services:
Monday through Friday
7:30 a.m. - 5:00 p.m. CST
(701) 277-2227
or
1-800-342-4718
Office Address and Hours:
You may visit our Home Office during normal
business hours –
Monday through Friday
8:00 a.m. - 4:30 p.m. CST
Blue Cross Blue Shield of North Dakota
4510 13th Avenue South
Fargo, North Dakota 58121
Mailing Address:
You may write to us at the following address –
Blue Cross Blue Shield of North Dakota
4510 13th Avenue South
Fargo, North Dakota 58121

App. 38
Internet Address:
www.BCBSND.com
District Offices:
We invite you to contact our District Office
closest to you –
Fargo District Office
4510 13th Avenue South
(701) 282-1149
Jamestown Office
300 2nd Avenue Northeast
Suite 132
(701) 251-3180
Bismarck District Office
1415 Mapleton Avenue
(701) 223-6348
Dickinson Office
150 West Villard, Suite 2
(701) 225-8092
Grand Forks District Office
American Office Park
2810 19th Avenue South
(701) 795-5340
Devils Lake Office
425 College Drive South, Suite 13
(701) 662-8613
Minot District Office
1308 20th Avenue Southwest
(701) 858-5000

App. 39
Williston Office
1137 2nd Avenue West, Suite 105
(701) 572-4535
Your employer has established a self-funded employee
welfare benefit plan for Eligible Employees and their
Eligible Dependents. The following Summary Plan
Description is provided to you in accordance with the
Employee Retirement Income Security Act of 1974.
Every attempt has been made to provide concise and
accurate information. This Summary Plan Description
and the Service Agreement are the official benefit plan
documents for the employee welfare benefit plan
established by the Plan Administrator. In case of
conflict between this Summary Plan Description and
the Service Agreement, the provisions of the Service
Agreement will control.
Although it is the intention of the Plan Administrator
to continue the self-funded employee welfare benefit
plan for an indefinite period of time, the Plan
Administrator reserves the right, whether in an
individual case or in general, to eliminate the Benefit
Plan.
The Claims Administrator shall have full, final and
complete discretion to construe and interpret the
provisions of the Service Agreement, the Summary
Plan Description and related documents, including
doubtful or disputed terms and to determine all
questions of eligibility; and to conduct any and all
reviews of claims denied in whole or in part. The
decision of the Claims Administrator shall be final,
conclusive and binding upon all parties.

App. 40
PLAN NAME
Missouri Basin Health Plan
NAME AND ADDRESS OF EMPLOYER (PLAN
SPONSOR)
MBI Energy Rentals, Inc.
PO Box 458
Belfield, North Dakota 58622
PLAN SPONSOR’S IRS
IDENTIFICATION NUMBER

EMPLOYER

90-0762487
PLAN NUMBER ASSIGNED BY THE PLAN
SPONSOR
501
TYPE OF WELFARE PLAN
Health
TYPE OF ADMINISTRATION
This is a self-funded employee welfare benefit
plan with an individual stop-loss of $100,000
and an aggregate stop-loss of 125%. This plan is
funded by MBI Energy Services. The Claims
Administrator does not underwrite, insure or
assume liability for payment of Covered Services
available under the Benefit Plan up to the stoploss points. The Claims Administrator does not
assume any obligation to pay claims except from
funds contributed up to the stop-loss points.

App. 41
NAME AND ADDRESS
ADMINISTRATOR

OF

CLAIMS

Blue Cross Blue Shield of North Dakota
(BCBSND)
4510 13th Avenue South
Fargo, North Dakota 58121
PLAN ADMINISTRATOR’S NAME, BUSINESS
ADDRESS AND BUSINESS TELEPHONE
NUMBER
MBI Energy Services
PO Box 458
12980 35th Street South West
Belfield, North Dakota 58622
701-575-8242
NAME AND ADDRESS OF AGENT FOR SERVICE
OF LEGAL PROCESS
Plan Administrator:
Tony Hauck
PO Box 458
12980 35th Street South West
Belfield, North Dakota 58622
Claims Administrator:
Daniel E. Schwandt
Blue Cross Blue Shield of North Dakota
4510 13th Avenue South
Fargo, North Dakota 58121
Service of legal process may be made upon a
Plan trustee or the Plan Administrator.

App. 42
TITLE OF EMPLOYEES AUTHORIZED TO
RECEIVE
PROTECTED
HEALTH
INFORMATION
Human Resources Manager
This includes every employee, class of
employees, or other workforce person under
control of the Plan Sponsor who may receive the
Member’s Protected Health Information relating
to payment under, health care operations of, or
other matters pertaining to the Benefit Plan in
the ordinary course of business. These identified
individuals will have access to the Member’s
Protected Health Information only to perform
the plan administrative functions the Plan
Sponsor provides to the Benefit Plan. Such
individuals will be subject to disciplinary action
for any use or disclosure of the Member’s
Protected Health Information in breach or in
violation of, or noncompliance with, the privacy
provisions of the Benefit Plan. The Plan Sponsor
shall promptly report any such breach, violation,
or noncompliance to the Plan Administrator; will
cooperate with the Plan Administrator to correct
the breach, violation and noncompliance to
impose appropriate disciplinary action on each
employee or other workforce person causing the
breach, violation, or noncompliance; and will
mitigate any harmful effect of the breach,
violation, or noncompliance on any Member
whose privacy may have been compromised.

App. 43
STATEMENT OF ELIGIBILITY TO RECEIVE
BENEFITS
Full-time employees working 40 hours a week
are eligible after 30 days probation.
Eligibility to receive benefits under the Benefit
Plan is initially determined by the Plan
Administrator. When an eligible employee meets
the criteria for eligibility, a membership
application must be completed. The Claims
Administrator may review this initial
determination and has full discretion to
determine eligibility for benefits. The Claims
Administrator’s decision shall be final,
conclusive and binding upon all parties.
DESCRIPTION OF BENEFITS
See the Schedule of Benefits and the Covered
Services Sections. Refer to the Table of Contents
for page numbers.
SOURCES OF PREMIUM CONTRIBUTIONS TO
THE PLAN AND THE METHOD BY WHICH THE
AMOUNT OF CONTRIBUTION IS CALCULATED
Health premium - 100% of the health premium
is paid by the employer.
END OF THE YEAR DATE FOR PURPOSES OF
MAINTAINING THE PLAN’S FISCAL RECORDS
December 31
***

App. 44
[p.58]
RIGHT TO RECEIVE AND RELEASE NEEDED
INFORMATION
Certain facts about health care coverage and services
are needed to administer this coordination of benefits
provision and to determine benefits payable under this
Benefit Plan and other plans. The Claims
Administrator may obtain the facts it needs from or
give them to other organizations or persons for the
purpose of administering this provision. The Claims
Administrator need not tell, or obtain the consent of,
any person to do this. Each Member claiming benefits
under this Benefit Plan must provide the Claims
Administrator with any facts it needs to administer
this provision and determine benefits payable.
FACILITY OF PAYMENT
A payment made under another plan may include an
amount that should have been paid under this Benefit
Plan. If it does, the Claims Administrator may pay that
amount to the organization that made the payment.
The amount will then be treated as though it were a
benefit paid under this Benefit Plan. The Claims
Administrator will not have to pay that amount again.
RIGHT OF RECOVERY
If payments have been made by the Claims
Administrator for Covered Services in excess of the
amount payable under this Benefit Plan, the Claims
Administrator may recover the excess from any persons
to or for whom such payments were made, including
any Member, provider or other organization. The

App. 45
Member agrees to execute and deliver any
documentation requested by the Claims Administrator
to recover excess payments.
7.2 AUTOMOBILE NO-FAULT OR MEDICAL
PAYMENT BENEFIT COORDINATION
If a Member is eligible for basic automobile no-fault
benefits or other automobile medical payment benefits
as the result of accidental bodily injury arising out of
the operation, maintenance or use of a motor vehicle,
the benefits available under this Benefit Plan will be
reduced by and coordinated with the basic automobile
no-fault benefits or other automobile medical payment
benefits.
7.3 MEDICAL
COORDINATION

PAYMENT

BENEFIT

If a Member is eligible for medical payment benefits
provided by any other collectible insurance as a result
of an injury, the benefits available under this Benefit
Plan will be reduced by and coordinated with the
medical payment benefits provided by any other
collectible insurance not prohibited from coordination
of benefits.
7.4
RIGHTS
OF
SUBROGATION,
REIMBURSEMENT AND ASSIGNMENT
If the Claims Administrator on behalf of the Group
pays benefits for Covered Services to or for a Member
for any injury or condition caused or contributed to by
the act or omission of any third party, the Claims
Administrator on behalf of the Group shall have certain
rights of assignment, subrogation and/or

App. 46
reimbursement as set forth below. The Claims
Administrator has full discretionary authority to
determine whether to exercise any or all of said rights.
A Member must notify the Claims Administrator
of the circumstances of the injury or condition,
cooperate with the Claims Administrator in
doing whatever is necessary to enable the Claims
Administrator to assert these rights, and do
nothing to prejudice them. The rights stated
herein apply automatically in any applicable
situation. The Claims Administrator has no
obligation to notify a Member of the Claims
Administrator’s intent to exercise one or more of
these rights and the Claims Administrator’s
failure to provide such a notice shall not
constitute a waiver of these rights.
If a Member does not comply with these provisions or
otherwise prejudices the rights of the Claims
Administrator on behalf of the Group to assignment,
subrogation or reimbursement, the Claims
Administrator shall have full discretion to withhold
payment of any future benefits to or for the Member
and to off set the benefits already paid to or for the
Member against the payment of any future benefits to
or for the Member regardless of whether or not said
future benefits are related to the injury or condition.
The Claims Administrator shall have full discretion to
interpret these provisions and to determine their
application in each and every situation. Any decisions
by the Claims Administrator regarding the application
of the above provisions shall be final, conclusive and
binding upon all parties.

App. 47
A. Right of Assignment and/or Subrogation: If a
Member fails to bring a claim against a third party
(including any person, firm or corporation which
may be liable for or on behalf of the third party), the
Claims Administrator on behalf of the Group has
the right to bring said claim as the assignee and/or
subrogee of the Member and to recover any benefits
paid under this Benefit Plan.
B. Right of Reimbursement: If a Member makes any
recovery from a third party (including any person,
firm or corporation which may be liable for or on
behalf of the third party), whether by judgment,
settlement or otherwise, the Member must notify
the Claims Administrator of said recovery and must
reimburse the Claims Administrator on behalf of
the Group to the full extent of any benefits paid by
the Claims Administrator, not to exceed the amount
of the recovery. This right of reimbursement shall
apply to any such recovery to the extent of any
benefits paid under this Benefit Plan even if the
Member has not received full compensation for the
injury or condition. Any recovery the Member may
obtain is conclusively presumed to be for the
reimbursement of benefits paid by the Claims
Administrator on behalf of the Group until the
Claims Administrator has been fully reimbursed.
The Member agrees to not transfer any right to any
recovery to a third party or otherwise attempt to avoid
the rights of the Claims Administrator on behalf of the
Group under this Benefit Plan. The Member agrees
that any recovery shall be held in trust for the Claims
Administrator on behalf of the Group until the Claims

App. 48
Administrator on behalf of the Group has been fully
reimbursed and/or that the Claims Administrator on
behalf of the Group shall have a lien on any recovery to
the full extent of any benefits paid under this Benefit
Plan. The Member agrees that to enforce its rights
under this section, the Claims Administrator on behalf
of the Group may pursue any and all remedies, legal or
equitable, available under state or federal law,
Including subrogation, breach of contract, constructive
trust, equitable lien, injunction, restitution and any
other remedies.
7.5 WORKERS’ COMPENSATION
If benefits or compensation are available, in whole or in
part, under provisions of a state workers’ compensation
act, laws of the United States or any state or political
subdivision thereof, the benefits under this Benefit
Plan will be reduced by and coordinated with such
other benefits or compensation available to a Member.
If a Member is injured or suffers any condition caused
or contributed to by the Member’s employment, the
Member must notify the Claims Administrator of the
circumstances of the injury and condition, cooperate
with the Claims Administrator and the United States
or any state or political subdivision thereof in doing
whatever is necessary to determine the availability of
such benefits or compensation, and do nothing to
prejudice them.
In the event of the failure of a Member to comply with
this provision or if a Member prejudices that Member’s
right or entitlement to benefits or compensation
available under such a program, the Claims

App. 49
Administrator shall have full discretion to withhold
payment of any future benefits to or for the Member
and to off set the benefits already paid to or for the
Member against the payment of any future benefits to
or for the Member regardless of whether or not said
future benefits are related to the injury or condition.
***

App. 50

APPENDIX D
No. 18-1539
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
[Filed May 22, 2018]
______________________
MBI ENERGY SERVICES,
Plaintiff-Counterclaim Defendant-Appellee
v.
ROBERT HOCH,
Defendant-Counterclaim Plaintiff-Appellant
______________________
Appeal from the United States District Court
for the District of North Dakota
Case No. 1:16-cv-00329-DLH-CSM
Honorable Daniel L. Hovland, Presiding
ANSWERING BRIEF OF APPELLEE
MBI ENERGY SERVICES

App. 51
J. Gordon Howard
J. Matthew Stephens
Jodi Bishop Runger
RUSSELL & OLIVER, PLC
5178 Wheelis Drive
Memphis, Tennessee 38117
Telephone: (901) 844-4449
Facsimile: (901) 844-4435
gordonh@russelloliverlaw.com
matts@russelloliverlaw.com
jodir@russelloliverlaw.com
Attorneys for Plaintiff-Counterclaim
Defendant/Appellee MBI Energy
Services, Inc.
***
[p.14]
documents under the de novo standard of review.53
Hoch also appeals the grant of MBI’s Motion to Dismiss
Hoch’s Counterclaim.
The District Court determined that Hoch’s
counterclaims failed to state a claim upon which relief
could be granted.54 This Court reviews a Rule 12(b)(6)
dismissal of a claim de novo.55 In resolving the motion
to dismiss, the Court is required to accept all well-

53

Johnson, 775 F.3d at 987; Shaw, 566 Fed. App’x at 538.

54

A288.

55

Smithrud v. City of St. Paul, 746 F.3d 391, 397 (8th Cir. 2014).

App. 52
pleaded factual allegations as true. However, this tenet
is not applicable to labels, legal conclusions, and
formulaic recitations of a cause of action. To avoid
dismissal, the complaint must state a claim that is
“plausible on its face.”56 In evaluating the motion to
dismiss, pursuant to Rule 12(b)(6), the court should
evaluate the complaint in its entirety, as well as
documents and “materials that are necessarily
embraced by the pleadings.”57
ARGUMENT AND AUTHORITIES
I. A summary plan description can serve as an
employee welfare benefit plan’s governing
document.
In his Opening Brief, Hoch asks this Court to split
from all other circuit courts of appeals—and its own
prior precedent—and hold that a summary plan
description can never serve as an employee welfare
benefit plan’s governing document. If this Court were
to adopt Hoch’s argument, it would not only create a
circuit split, but it would also undermine the design of
the majority of employer health plans and put
thousands—if not millions—of ERISA participants’
benefits at risk.58 These ERISA participants would be
56

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)(quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007)).
57

58

Smithrud, 746 F.3d at 397

Montanile, 593 F. App’x at 910 (citing Gamboa, 479 F.3d at 544
(“it would be nonsensical to conclude that the plain language of the
Plan requires an interpretation that renders no plan at all under
the terms of ERISA.”)); Berumen, 2016 U.S. Dist. LEXIS 146814

App. 53
left without a Plan document to rely on in support of
their claims for benefits under 29 U.S.C. § 1132(a)(1),
and their benefit plans would cease to exist.59
Welfare benefit plans must be established and
maintained pursuant to a written instrument. Under
ERISA, a plan’s written instrument must: (1) state the
method of funding, (2) allocate responsibility for
administration and operation of the Plan, (3) provide a
procedure to amend the plan, and (4) specify how
benefits are paid from the plan.60
The Supreme Court has long held that employers
and plan sponsors “are given large leeway to design
[employee welfare benefit plans] as they see fit.”61
Employers and plan sponsors are generally free to
adopt, modify, or terminate
***

*6 (quoting 3 ERISA Practice and Litigation § 12:38 (stating that
health plans frequently take a consolidated approach to drafting
plan documents)).
59

Id.

60

29 U.S.C. § 1102(b); Rhea, 858 F.3d at 343.

61

29 U.S.C. § 1102(a)(1); M&G Polymers USA, LLC v. Tackett, 135
S. Ct. 926, 933 (2015) (citing Black & Decker Disability Plan v.
Nord, 538 U.S. 822, 833 (2003) and Curtiss-Wright Corp. v.
Schoonejongen, 514 U.S. 73, 78 (1995)).

App. 54
[p.18]
BCBSND will evaluate benefit claims in accordance
with the rights and obligations set forth in the SPD.73
Consequently, Hoch’s attempts to undermine the SPD
fail.
1. The SPD.
As noted above, an ERISA plan document must set
forth the method of funding, allocate responsibility for
administration and operation of the Plan, provide a
procedure to amend the plan, and specify how benefits
are paid from the plan.74 The SPD should be enforced
because it is indisputably a written document and
clearly meets all of these criteria.
First, the SPD states how benefits are funded and
describes how premium contributions are collected and
calculated.75 Second, the SPD allocates responsibility
for the operation and administration of the Plan. It
describes the roles of the Plan Administrator, Claims
Administrator, and identifies agents for service of

73

A161 (the Plan provides benefits as set forth in the SPD); A165
at ¶ III.P (“Plan benefits will be evaluated by [BCBSND] in
accordance with the terms and conditions of the Plan, a copy of
which is attached as Exhibit ‘A’[the SPD].”); A179 at ¶ XIII.H. (the
Summary Plan Description, attached as Exhibit “A”, is the
controlling Plan document.).
74

75

29 U.S.C. § 1102(b).

A022, A192 (the Plan is a self-funded by MBI and has an
individual stop-loss of $100,000.00); A024, A194 (health premiums
are paid by the employer).

App. 55
process.76 Third, the SPD provides information
regarding how the Plan can be amended and identifies
who is authorized to amend the Plan.77 Finally, and
most importantly, the SPD provides exhaustive details
about the benefits and obligations of Plan participants
including information about deductibles, coinsurance,
out-of-pocket maximums, waiting periods, in-network
versus out-of-network providers, accessing the Blue
Card Network, services that are covered by the Plan,
services that are excluded by the Plan, how benefits are
coordinated with other plans, the claims and appeal
process, and also provides the Plan’s right of
reimbursement and subrogation.78
The SPD is the document that describes how
benefits are paid by the Plan, thus, it is the operative
Plan document.79
2. The ASC.
The ASC is a contract between MBI and BCBSND
that authorizes BCBSND to provide third-party
administrative services on behalf of the Plan.80 The
terms of the ASC demonstrate that the ASC cannot be
a standalone ERISA plan document, but that the Plan
76

A022–A024, A030; A192–A194, A200.

77

A076, A246.

78

A022–A024, A26–29; A032–A102; A192–A194; A196–A197;
A202–A272.
79

Gamboa, 479 F.3d at 544.

80

A148 at ¶ 5; see also A161.

App. 56
terms are found in another document, the SPD—
identified as Exhibit “A” to the ASC.81 Moreover, the
ASC identifies itself as an
***

81

A161 (the Plan provides benefits as set forth in the SPD); A165
at ¶ III.P (“Plan benefits will be evaluated by [BCBSND] in
accordance with the terms and conditions of the Plan, a copy of
which is attached as Exhibit ‘A’[the SPD].”);

